                                                                                                             Ofiic~of I~rspccforG ei~ernl
                                                                                                             Atluntu Field O f l t e - Audrt Drvuio~

                                                                                                             U.S. Department of Homeland Security
                                                                                                             3003 Chamblee-Tucker Road
                                                                                                             Atlanta, Georgia 30341




                                          August 1,2005

              MEMORANDUM

              TO:              Kenneth 0. Bunis, Jr.


              FROM:
                               Field Office Director

              SUBJECT:         City of Clarksville, Tennessee
                               FEMA Disaster No.1262-DR-TN
                               Audit Report No. DA-24-05


              The Office of Inspector General audited public assistance funds awarded to the City of Clarksville,
              Tennessee. The objective of the audit was to determine whether the City accounted for and
              expended FEMA funds according to federal regulations and FEMA guidelines.

              The City received an award of $2.1 million from the Tennessee Emergency Management Agency, a
              FEMA grantee, to remove debris, provide emergency protective measures, and repair facilities
              damaged as a result of a tornado in January 1999. The award provided 75 percent FEMA funding for
              9 large projects and 12 small projects.1 The audit covered the period of January 1999 to January
              2003. During this period, the City claimed $2,128,960 and received $1,596,720 of FEMA funds
              under the projects.

              We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
              according to generally accepted government auditing standards. The audit included tests of the
              City's accounting records, a judgmental sample of expenditures, and other auditing procedures
              considered necessary under the circumstances.


                                                              RESULTS OF AUDIT

             The City's claim included $30,596 of questioned costs (FEMA share $22,947) resulting from charges
             that were ineligible, for work not completed, covered by insurance, or excessive.




              1   Federal regulations in effect at the time of the disaster set large project threshold at $47,800.



--
ppPp-


     -
     

         -
             -- --- --
                     ---
                       -- ---        --   -   PA   -                               2 _ _ _ _ _ _ _ t l _ _      "                -   -----I
                                                                                                                                                 -
                                                                                                                                                       -
A. Inelizible Project Charges. The City's claim included $1 1,419 of ineligible project charges, as
   follows.

       FEMA policy (No. 9525.2) states that applicants can claim, with certain limitations, the value
       of donated resources (volunteer labor, donated equipment, and donated materials) used in the
       performance of eligible emergency work (Categories A and B). However, the City's claim
       under Project 744 included $4,418 of prepared food local businesses donated to the City and
       $6,000 of computer software a software company donated to local businesses, not the City.
       We question the $10,418 claimed for these items because there was no evidence that they
       were used in the performance of emergency services work.

       The City claimed $1,001 of regular-time salaries and benefits for permanent employees (civil
       engineers, construction inspectors, and equipment operators) who performed emergency
       services work under debris removal Project 628. However, federal regulation (44CFR
       206.228) states that the straight or regular-time salaries and benefits of permanent employees
       engaged in debris removal work are not eligible for FEMA assistance. Accordingly, we
       question the $1,00 1.

B. Small Proiect with Incomplete Work. The City received $40,153 under small Project 7'45 to
   demolish 4 buildings that were declared unsafe. However, we determined that only 3 buildings
   were demolished at a total cost of $3 1,820. City officials said that the City had no plans to
   demolish the remaining building. Federal regulation (44 CFR 206.205) states that failure to
   complete work under a small project may require the Federal payment to be refunded.
   Accordingly, we question $8,333 awarded for work not performed.

C. Costs Covered by Insurance. The Stafford Act prohibits the use of public assistance funds for
   damages covered by insurance. Grant recipients are responsible for pursuing insurance
   recoveries and crediting FEMA projects with all proceeds. However, under debris removal
   Projects 540 and 679, the City did not credit the projects with insurance proceeds of $6,415.
   Accordingly, the $6,415 is questione&$1,415 under Project 540 and $5,000 under Project 679.

D. Excess Administrative Charges. Under the Stafford Act, the City is entitled to an administrative
   allowance based on a statutory formula to cover the costs associated with requesting, obtaining,
   and administering FEMA awards. Federal regulation (44 CFR 206.228) limits funding for
   administrative costs to that allowance.

    However, the City's claim included $4,429 of labor charges ($2,343 under Project 625 and
    $2,086 under Project 628) for employees who performed surveys and damage assessment
    activities, and general and clerical support activities (i.e. answering telephones, typing, and
    making copies of documents). We question these charges because the surveys and damage
    assessment activities were done for the purpose of documenting the need for and requesting
    FEMA financial assistance and the clerical support activities were done to administer the FEMA
    award. Therefore, the $4,429 of costs are covered by the statutory administrative allowance.
                                      RECOMMENDATION 


We recommend that the Regional Director, in coordination with the grantee, disallow the $30,596 of
questioned costs.


               DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the audit results with City, grantee, and FEMA officials on June 21,2005. City
officials concurred with the findings.

Please advise the Atlanta Field Office-Audit Division by October 3, 2005, of the actions taken to
implement our recommendation. Should you have any questions concerning this report, please
contact David Kimble or me at (770) 220-5242.
                                                                Exhibit

                 City of Clarksville, Tennessee
                 FEMA-Disaster 1262-DR-TN
            Schedule of Claimed and Questioned Costs

                         Large Projects

Project               Amount                Amount      Amount
Number                Awarded               Claimed    Questioned
  628               $ 244,823             $ 244,823      $ 3,087
  744                   46,373                46,373      10,418
  772                  378,468               378,468           0
  786                  395,996               395,996           0
  545                  291,814               291,814           0
  625                  148,872               148,872       2,343
  629                  107,039               107,039            0
  630                  114,053               114,053            0
  54 1                 171.042               171,042            0
Sub-Total           $1,898,480            $1,898,480     $15,848

                         Small Proiects

 679
 745
 540
Others
Sub-Total

Total
